           Smithsonian Institution
           Office of the Inspector General


           In Brief                                Employee and Contractor Screening Measures
                                                   Report Number A-05-07, August 21, 2006



Why We Did This Audit                 What We Found

This is the second of three reports   According to Office of Protection Services (OPS) records, background
covering security issues at the       investigations were not conducted for half of the Smithsonian’s employees hired
Smithsonian. We initiated this        between October 1, 2003 and April 30, 2005. In addition, the Smithsonian could
audit because recent OIG criminal     not provide records to demonstrate that background investigations had been
investigations identified             conducted for contract employees.
employees with backgrounds
unsuitable for their positions,           •   According to OPS records, only 967 (or 51 percent) of the 1,903
raising concerns about the                    employees requiring background investigations who were hired during
effectiveness of the Institution’s            this period received one. Almost half of the Smithsonian’s senior-level
screening of potential employees              employees did not have background investigations. In addition, 436 (or
and contractors.                              81 percent) of the 535 contractors hired between June and December
                                              2005 had no record of a background investigation, even though OPS
What We Recommended                           began screening contract employees in June 2005.

We made 18 recommendations to             •   The Smithsonian had not identified employee or contractor positions
strengthen management of the                  requiring pre-appointment background investigations, although
background screening program,                 Smithsonian policy recommends that pre-appointment background
including pre-screening                       investigations be considered for individuals in sensitive curatorial,
prospective employees for all                 information technology and financial positions.
designated positions; improving
documentation procedures;                 •   Volunteers, researchers, and interns who often have the same access to
performing background                         collection items and other assets as the Institution’s employees and
investigations for non-                       contractors were not required to be screened.
Smithsonian employee positions,
such as volunteers and visiting           •   When background investigations raised significant suitability issues, such
researchers; and establishing                 issues generally were not properly adjudicated. Of the employees we
closer supervision over the                   sampled whose Office of Personnel Management background
adjudication of suitability                   investigations disclosed questionable backgrounds, 20 percent had
determinations.                               significant suitability issues such as convictions or arrests for theft, drug
                                              use and distribution, or assault and battery. OPS did not maintain any
Management generally concurred                records to indicate that these suitability issues were properly adjudicated.
with our findings and
recommendations and proposed a
detailed implementation plan that     To implement Homeland Security Presidential Directive 12, which imposes new
responds to our                       identity-proofing standards government-wide, the Smithsonian will have to
recommendations.                      significantly improve its identification of high-risk positions, processing and
                                      tracking of investigations, adjudication of suitability issues, and record-keeping
                                      practices.

                                      For additional information or a copy of the full report, contact the Office of
                                      the Inspector General at (202) 275-2244 or visit http://www.si.edu/oig.
OPM conducts four types of background investigations for the Smithsonian: a National
Criminal Investigation Check (NCIC), a National Agency Check and Inquiry (NACI), a
Special Agreement Check (SAC), or a Full Field Investigation (FFI). Except for security
officers, these background investigations are not done until after employees have begun
working at the Institution. As summarized below, the category of background
investigation to be conducted depends on the individual’s position and type of
employment:

   •   Security officers undergo an NCIC, which is the only one performed pre-
       employment. The NCIC matches individuals against FBI arrest records. The
       Institution also performs a NACI for security officers once they are hired.

   •   Permanent employees below the senior level receive a NACI, which is the
       minimum investigation required for all federal employees. This investigation
       includes a check of FBI fingerprint and investigative files, OPM investigative files,
       and military records, as well as written inquiries to law enforcement agencies,
       former employers and supervisors, personal references and schools.

   •   Friends of the National Zoo (FONZ), temporary, and contract employees undergo
       a SAC, which is a review of FBI fingerprint files to determine criminal history.

   •   Senior-level employees receive an FFI, a more rigorous investigation than the
       NACI or SAC that examines the preceding 15 years of an individual’s background.

The Smithsonian’s Office of Protection Services (OPS) is responsible for administering
the Institution’s background investigation process and maintaining investigative records
while individuals are on the Smithsonian rolls. According to Smithsonian Directives (SD)
212 and 213, OPS initiates background investigations by forwarding to OPM information
questionnaires completed by employees when they begin their employment. In June 2005,
OPS expanded its fingerprint checks to all new employees and contractors, and now
transmits these fingerprints to OPM along with the information questionnaires. OPM
then conducts an investigation and issues a report, including an official certificate of
investigation.

Upon receipt of OPM’s investigative report, OPS forwards the Certificate of Investigation
to the Institution’s Office of Human Resources (OHR) for retention in the employee’s
official personnel file. OPS is also required to forward to OHR any OPM findings
questioning the employee’s suitability and any OPS recommendations. OHR then
notifies the unit-level hiring manager and assists in any necessary administrative actions.
The hiring manager, with assistance from OHR, is responsible for making the suitability
determination and reporting its decision to OPS.




                                             2
RESULTS IN BRIEF

According to OPS records, background investigations were not conducted for half of the
Institution’s employees. Additionally, the Institution could not provide records to
demonstrate that background investigations had been conducted for contract employees.

    •   According to OPS records, only 967 (or 51 percent) of the 1,903 employees
        requiring background investigations who were hired between October 1, 2003 and
        April 30, 2005 in fact underwent background investigations. While the employees
        who were not screened were associated with various units across the Institution,
        the majority of them were from FONZ, Smithsonian Business Ventures (SBV),
                                                               1
        and the Smithsonian Astrophysical Observatory (SAO).

    •   According to OPS records, 103 (or 48 percent) of the Institution’s 214 senior-level
        employees did not have background investigations. Of the 111 who had them,
        only 6 had the required FFI.

    •   The Institution had not identified employee or contractor positions requiring pre-
        appointment background investigations, although Institution policy recommends
        that pre-appointment background investigations be considered for individuals in
        sensitive curatorial, information technology and financial positions.

    •   According to OPS records, 436 (or 81 percent) of the 535 contractors hired
        between June and December 2005 had no record of a background investigation,
        even though OPS began screening contract employees in June 2005.

    •   Volunteers, researchers, and interns who often have the same access to collection
        items and other assets as the Institution’s employees and contractors were not
        required to be screened.

In our opinion, proper screening would likely have prevented thefts of the Institution’s
assets. For example, an employee involved in a theft of checks from an Institution
mailroom had prior arrests for fraudulent use of a credit card, possession of a stolen
automobile, and assault and battery. Another employee, who had a prior felony
conviction for securing financial documents by deception and three misdemeanor
convictions for theft, embezzled funds from the Institution.

Individuals did not receive background investigations because OHR had not notified OPS
of all new hires. In addition, OHR had not identified sensitive positions requiring either a
pre-employment investigation or a more rigorous background review and did not track

1
 Based on discussions with OPM representatives and a cursory review of limited documentation provided
by OPM, significantly more background investigations were performed for Smithsonian employees and
contractors than OPS records indicate. However, performing a detailed examination of OPM’s records was
beyond the scope of our audit.


                                                  3
individuals requiring an investigation to ensure all Official Personnel Folders contained a
Certificate of Investigation. Further, OPS lacked an automated means of matching OHR
data on new hires with OPS records to ensure that all permanent and contract employees
received the required screening. According to OPS staff, its tracking system lacked the
functionality and capacity to accommodate all employee and contractor records.
Consequently, OPS did not enter all individuals to be investigated in its tracking system,
or keep complete records on the status of investigations.

Further, when background investigations raised significant suitability issues, such issues
generally were not properly adjudicated. Of the 128 employees we sampled whose OPM
investigations disclosed questionable backgrounds, 26 (20 percent) had significant
suitability issues such as convictions or arrests for theft, drug use and distribution, or
assault and battery. OPS did not maintain any records to indicate that these suitability
issues were properly adjudicated. According to OHR, except for one case, it was not
made aware of these suitability issues. In practice, OPS was making all of the suitability
determinations, instead of referring issues to OHR and hiring officials for adjudication.
Of those 26 employees, 13 are still working at the Institution and 13 were removed or
resigned from their positions due to performance or conduct problems. At least 6 of the
13 are serving in positions that pose a risk to the Institution, and the remaining 7 should
be re-evaluated to determine whether they pose a risk.

Beginning in October 2006, the Institution will voluntarily implement Homeland Security
Presidential Directive 12 (HSPD-12), which requires identity proofing, prompt initial
background checks, and special identification cards for federal employees. Implementing
this directive will require that all permanent and contract employees receive a National
Agency Check (a records check without interviews or reference checks) and a fingerprint
analysis before being issued identification badges. This background check will be
followed by a more comprehensive NACI. Consequently, the Smithsonian will have to
significantly improve its identification of high-risk positions, processing and tracking of
investigations, adjudication of suitability issues, and recordkeeping practices.

RESULTS OF AUDIT

OPS Had No Record of Background Investigations for Half of the
Institution’s Employees

Smithsonian Directives (SD) 212 and 213 require that a background investigation be
completed for all individuals newly appointed to the Institution to ensure their
employment will not pose a threat to the Institution or its visitors, staff, or collections.
However, when we compared OHR’s listing of new employees with OPS records we
found that only 967 (51 percent) of the 1,903 new hires from October 1, 2003 to April 30,
2005 had records of background investigations.




                                             4
As shown in the following chart, OPS had no records to indicate whether 936 employees
had been investigated, nor could they confirm whether background investigations had
been conducted. While these individuals were associated with various units across the
Institution, the majority of them were from FONZ,2 SBV, and SAO.

                                                CHART 1

                     Background Investigations for Employees Hired
                       Between October 1, 2003 and April 30, 2005



                                                                       FONZ
                                                                       (440)
     Employees With
       Background
      Investigations
          (967)                                                             SBV
                                                                            (249)


                                                                   Other
                                                    SAO            (219)
                                                    (28)

                             Employees With Background Investigations

                             Employees Without Background Investigations


Neither OHR nor Payroll Records Were Used to Identify New Hires

Background investigations were not conducted for all employees because OPS was not
notified of all new hires either by OHR or by the separate human resources offices of
FONZ, SAO, and SBV. At a minimum, Institution OHR units should notify OPS of new
hires at the same time that individuals are added to the PeopleSoft Human Resources
Management System or to the Institution’s payroll systems. For those positions requiring
a pre-appointment background check, the notification should coincide with a contingent
offer to the prospective new hire.

We also found that OPS was not routinely matching its investigative requests against
payroll or OHR records to ensure that it processed investigations for all new employees.
Finally, OPS did not periodically report back to OHR, or to the OHR units of FONZ,

2
  FONZ employees are not employees of the Smithsonian Institution. However, they were included in the
scope of the audit because FONZ has a Memorandum of Agreement with OPS to conduct background
investigations of FONZ staff. In addition, for most Zoo visitors it is difficult to distinguish between Zoo
employees and FONZ employees and volunteers.


                                                     5
SAO, or SBV, to confirm that background investigations were in process. Consequently,
if OPS did not request an investigation, the units had no way of knowing that
investigations were not processed. For example, SAO human resources personnel told us
they were not aware that several of its employees had not received background checks
because they expected OPS to notify them only if there were problems. According to
FONZ personnel, they did not track the status of background investigations and only
expected to hear from OPS if there were problems.

OPS Lacked Reliable and Adequately Designed System to Track Background Investigations

We found that OPS staff had not entered all employees that required background
investigations into its tracking system, called NACIS. NACIS is a stand-alone database
that OPS has used since 1993 to track investigative requests referred to OPM. This
database records identifying information about individuals, the type of investigation
requested, and the dates that OPS submitted its requests to OPM, received investigative
results, and closed the investigations. The database is the only system of records
maintained by OPS to document employee and contractor screening that would indicate
the volume of background investigations processed. The database receives no IT systems
administration or user support.

OPS staff told us they did not enter all employee records or complete information on
individuals because they believed that too many records would overload the tracking
system, causing it to crash, as it did in 2000. The database tracking system uses antiquated
software which is no longer supported. Further, OPS staff stated that they received no
training on data backup, record deletion, or report generation.

NACIS was also unreliable as a tracking system because it contained inaccurate and
incomplete data on key dates in the investigative process. We found that the date of the
OPM investigation request for 938 of the 1,903 employees hired within our audit scope
preceded the date employees submitted their background investigation questionnaire to
OPS. We also noted approximately 160 records that had blank values in the “returned”
and “closed” date fields. OPS personnel admitted that these various data errors were due
to inadequate data entry. We noted little or no supervisory review of data entry.

OPS will need a new system to support the investigative function and requirements of
HSPD-12. HSPD-12 requires identity proofing, prompt initial background checks, and
special identification cards for federal employees. To comply with HSPD-12, the
Institution will have to verify and/or complete background investigations for all
employees. The Institution will also need a better designed and more reliable tracking
system that is capable of matching investigative records against personnel records to
ensure that employees are properly screened. Moreover, given that employees and
volunteers with prior criminal records have been placed in positions of trust or given
access to the Institution’s assets, greater efforts are also needed to identify high-risk
positions and pre-screen all individuals serving in such positions.



                                             6
Recommendations
To ensure that all employees are identified and tracked for background screening in the
short term, we recommended that the Deputy Secretary and Chief Operating Officer:

   1. Ensure that OPS obtains a bi-weekly listing of new employees from OHR, SAO,
      SBV, and FONZ to ensure that background investigations are conducted for all
      new hires.

   2. Ensure that OPS works with the Office of the Chief Information Officer (OCIO)
      to provide refresher training to OPS staff in data entry, report generation, and
      other system capabilities.

In the long term, we recommended that the Deputy Secretary and Chief Operating
Officer:

   3. Replace NACIS with a system that can better accommodate the growing volume of
      background investigations as well as the additional recordkeeping requirements of
      HSPD-12. The replacement system should also interface with the Institution’s HR
      systems so that new employee information can be readily exchanged and
      reconciled to facilitate the processing of background investigations.

We also recommended that the Director of OPS:

   4. Ensure that background investigations are or have been conducted for the 936
      individuals who had no record of a background investigation.

   5. Routinely reconcile new employee listings with background investigation
      information tracked in NACIS and successor systems to ensure that it has a record
      of all employee investigations and results.

   6. Take steps to improve the accuracy of NACIS data.

The Type and Timing of Background Investigations Were Not Always
Determined by Position Risk

A 1996 OPM study of personnel security and suitability issues at the Institution reported a
need to assign risk levels to positions to guide the type and timing of background
investigations. OPM accordingly recommended that all Official Personnel Folders
contain a position description showing the proper risk designation level. In response to
this audit, the Institution indicated that OPS would work with OHR to ensure that proper
position risk levels were designated.

Although the Institution agreed to implement the study’s findings, we found it had not
properly designated risk levels for all positions or included such designations in


                                            7
employees’ Official Personnel Folders. Further, we noted that Smithsonian Directives 212
and 213 require hiring managers to decide whether a pre-employment NACI background
investigation is required for certain positions, including security officers, curators who
work with high value or portable collections, IT personnel, or individuals who handle
cash. We found little evidence that the Institution had done so. To the contrary, OPS
only conducted pre-appointment investigations for security officers.

SDs 212 and 213 also require OHR and OPS to decide whether an FFI is required for
senior-level employees and members of the professional research and curatorial staff who
have access to collections of high intrinsic value. Despite these directives, we found no
record of background investigations for 103 (or 48 percent) of the Institution’s
214 senior-level employees.3 Of the remaining 111 senior-level employees for whom
records existed, only 6 had the required FFI, even though 58 had been hired since the
policy was implemented in 1983. The remaining 56 employees were hired prior to 1983,
but nevertheless should have received an FFI after the policy became effective.

Had all employees been properly screened, the Institution would likely have prevented the
loss of some of its assets. For example, a recent OIG investigation determined that a
permanent federal employee who was hired in the Office of the Comptroller without a
background investigation had a prior felony conviction for securing financial documents
by deception and three misdemeanor convictions for theft. This employee, who served in
a managerial position, was given access to the Institution’s financial system and
subsequently stole approximately $58,000. This employee was convicted for the theft and
imprisoned. In another example, the OIG investigated a theft of checks from an
Institution mailroom by an employee who did not undergo a background investigation.
The individual, who was subsequently terminated, had previously been arrested for a
variety of crimes, including assault and battery, and fraudulent use of a credit card.

Recommendations

Because the Institution is not designating risk levels for certain sensitive positions such as
individuals with access to information systems, financial assets, and high-value
collections, we recommended that the Director of the Office of Human Resources:

    7. Assess risk levels for each employee position and ensure all Official Personnel
       Folders contain a position description showing the proper risk level.

    8. Issue guidance for assessing the risk levels for contractors to guide the type and
       timing of background investigations as well as the adjudication of investigative
       results.



3
  According to OHR, the Institution currently defines senior-level employees as those employees for whom
the Smithsonian Institution Board of Regents make final compensation decisions.


                                                    8
We also recommended that the Director of OPS:

   9. Comply with Smithsonian Directives 212 and 213 by processing:

        •   NACIs for those employees who are security officers, curators, IT personnel
            or individuals who handle cash, but have not yet had a NACI, and

        •   FFIs for senior-level employees and members of the professional research and
            curatorial staff who have access to collections of high intrinsic value, but have
            not yet had an FFI.

   10. Ensure that all new employees hired into positions such as security officers,
       curators, IT personnel, and individuals who handle cash, receive a pre-
       employment investigation as required by Smithsonian Directives.

Investigations of Contract Employees Were Not Documented

Prior to July 2005, background investigations on contractors were rarely performed. In
July 2005, OPS implemented a policy requiring either a NACI or SAC investigation for all
contractors who carry Smithsonian identification badges. Contractors employed for
6 months or less must have a SAC review of FBI records, which checks the criminal
history of the individual. Contractors employed for more than 6 months are required to
undergo a NACI investigation.

We found that although OPS began screening contractors in July 2005, it did not
document those investigations or their results. Of the 535 contractors who were issued
badges from July 1, 2005 to December 31, 2005, 444 should have had a NACI background
investigation, and 91 should have had a SAC investigation. However, for 436 of the 535
contractors (81 percent), OPS did not have a record of a background investigation. We
noted that six contractors worked in the cash management area of the Office of the
Comptroller and had access to the Institution’s financial system and assets, but none had
undergone background investigations. Another 38 contractors worked for OCIO and
may have had access to sensitive information systems.

While it is possible that OPS processed SAC background checks for many of these
contractors, we could not find evidence they did so in OPS’ tracking system because
contractor investigations are not documented in OPS’ database. OPS officials told us they
had not entered records for all contractors into its tracking system because the system was
at capacity and they feared it would crash if additional records were entered.
OPS also did not maintain any manual records to demonstrate that investigations of
contractors were performed. Consequently, we could not determine whether all
contractors received background investigations or how suitability issues identified in
investigations were adjudicated. Moreover, without documentation of investigations
performed, OPS cannot determine whether contractors who previously worked for the
Institution had already undergone a recent background investigation.


                                              9
Recommendation

We believe that our earlier recommendations, including that the NACIS system be
replaced with one that can better accommodate the requirements of HSPD-12, will
address the issues we identified. In the interim, however, we recommended that the
Director of OPS:

   11. Establish a record-keeping system to document contractor investigations and their
       results.

Volunteers, Researchers, and Interns Were Not Required to Be Screened

Over the course of any given year, the Institution benefits from the services of an
estimated 6,500 volunteers and researchers, of whom approximately 25 percent have
access to the collections or financial assets of the Institution. Additionally, about
1,000 interns serve at the Institution annually, some of whom work in high-risk areas.
The Institution does not screen volunteers, researchers, or interns even though many
work with employees whose positions have been designated as high-risk. For example,
volunteers in the Institution’s “Behind-the-Scenes” Volunteer Program work in non-
public areas in the archives, libraries, conservation laboratories and curatorial divisions
related to art, history, and science collections.

Because these individuals are not screened, volunteers with prior criminal records have
worked among the collections at the Institution. For example, we learned of a volunteer
who had access to collections who had been convicted of a drug offense and was
terminated from previous federal employment for certifying false statements. He
eventually received a background investigation when he later became a Trust, and then a
Federal employee. However, he was terminated before his background investigation
disclosed his criminal history. Had the Smithsonian known about the individual’s
criminal record when he was a volunteer, he might not have been hired as a permanent
employee.

We found that other museums, as a best practice, screen individuals seeking volunteer
assignments. For example, the American Museum of Natural History in New York City
requires that every new volunteer submit to a background investigation as a condition of
working in the museum. While screening all volunteers and researchers at the Institution
may be impractical given the sheer volume of individuals who volunteer or conduct
research at the Smithsonian, the Institution should require background investigations for
at least those individuals with access to the collections or who participate in the Behind
the Scenes Volunteer Program, as well as those with access to information systems or
financial assets.




                                             10
Recommendation
We recommended that the Director of OPS:

   12. Establish a policy requiring that volunteers, researchers, and interns who have
       access to collections, participate in the Behind the Scenes Volunteer Program, or
       work with the Institution’s information systems or financial assets be subject to
       appropriate background investigations.

Suitability Issues Were Not Properly Adjudicated or Recorded

Smithsonian Directives 212 and 213 require that OPS determine whether material
obtained during the OPM background investigation is important to the suitability
determination. If significant, OPS must complete an additional review, report to OHR
the substance of its findings, and make recommendations concerning the hiring or
retention of the individual. If OPS does not consider investigative information
significant, OPS is required to return the information to OPM or to destroy it.

When OHR receives OPS’ suitability issues report, it is required to forward this
information to the hiring official and assist with any administrative actions. The hiring
official must report the results of his or her suitability determination to OPS. OPS
safeguards the investigative information while the employee is at the Institution.

For FONZ employees, OPS—rather than OHR—is responsible for making the ultimate
suitability determination. According to an August 21, 2001, memorandum of
understanding between FONZ and the Institution, FONZ must accept OPS’ suitability
determination and is not entitled to know the specific reason for the decision. OPS must
maintain all FONZ employee files containing derogatory information for 10 years or for
2 years after termination or denial of employment. According to the agreement, if the
employee is deemed suitable, OPS will destroy the files.

Despite these requirements, our audit revealed that OPS had not forwarded suitability
issues to OHR for adjudication, nor had it retained adjudication records for Smithsonian
or FONZ employees. We sampled 128 of the 1,145 cases OPM completed from October
1, 2002 to April 30, 2005 that were assigned a “seriousness” code by OPM. Of those
sampled, we identified 26 (20 percent) that had serious suitability issues, such as charges
of assault and battery, firearms possession, drug distribution and use, grand larceny, petty
larceny, receipt of stolen property, and falsification of employment applications. These
issues were not adjudicated even though such charges made these individuals unsuitable
for work as a security officer or for working among the collections. Only one of the 26
was appropriately referred to OHR and terminated.

Rather than forwarding these cases to OHR for adjudication, OPS staff made the
suitability determinations themselves because they believed the issues were not significant
enough to involve OHR or the hiring managers. OPS staff told us that Smithsonian


                                             11
Directives were not clear on what constitutes a “significant” investigative issue or how
significant issues should be evaluated in making suitability determinations, thus leaving
OPS significant discretion in evaluating background results. Additionally, there had been
considerable turnover in supervisors of this process and suitability determinations
generally had not been subjected to supervisory review.

The lack of appropriate suitability determinations resulted in OHR and hiring managers
expending significant resources disciplining, terminating and replacing employees. Of the
26 significant cases we identified, we found that 8 individuals had left the Institution for
poor performance or conduct, and five had resigned for various reasons. As of May 31,
2006, 13 of these 26 individuals were still employed at the Institution.

In addition to our sample, recent OIG investigations identified two convicted felons who
held positions that were inappropriate given their criminal history. Had the nature of
their offenses been known by management, these individuals would not have been placed
in positions requiring close contact with the public.

We also found that OPS staff was not maintaining copies of OPM’s investigative reports
or documenting how they reached suitability determinations for cases with serious issues.
Further, OPS told us that the lack of security over the NACIS system, such as passwords
or other access controls, made them reluctant to enter sensitive data such as comments
about suitability determinations. Finally, OPS told us that they lacked storage space to
retain investigative records and would obtain copies from OPM when needed.
Additionally, regardless of the results of the background investigations, OPM policy
requires agencies to document that employees have undergone background investigations
by filing Certificates of Investigation in the employees’ Official Personnel Folders.
However, we found OPS had not forwarded these certificates to the SAO, SBV, and FONZ
human resources offices for inclusion in employee files.

Without the underlying records, it is difficult for the Institution to determine exactly how
suitability issues were adjudicated and whether the Institution and its assets are at risk
based on the sensitivity of the position assumed by such individuals. The lack of
investigative records also could hamper OPS and OIG in investigating individuals who
engage in wrongdoing after they are hired by the Smithsonian.

Recommendations
To ensure that suitability issues are forwarded to OHR, we recommended that the
Director of OPS work with the Director of OHR to:

   13. Revise SD 212 and 213 to define “significant” investigative material and how it
       should be used to determine suitability.

   14. Require supervisory review and approval of suitability findings and
       recommendations and ensure that OPS staff forwards recommendations to OHR.


                                             12
   15. Revisit OPS’ original suitability determinations for the remaining 13 of the 26
       employees identified in this audit to determine whether they are in appropriate
       positions given any risks they may pose.

To ensure that the Institution adequately records and documents investigative records,
suitability recommendations, and adjudicative actions taken, we recommended that the
Director of OPS:

   16. Determine what investigative information OPS should retain for all background
       investigations, especially where there are significant suitability issues, to meet the
       recordkeeping requirements of HSPD-12.

   17. Ensure that all employee and contractor investigations, results, and actions taken
       are entered into the NACIS and its future replacement system.

   18. Ensure that Certificates of Investigation are sent to the appropriate OHR office for
       inclusion in employees’ Official Personnel Folders or contracting officials for all
       contractors.


MANAGEMENT RESPONSE

The Directors of OPS and OHR provided formal written comments to our July 14, 2006,
draft report on August 11, 2006. The Directors generally concurred with our findings and
recommendations and identified actions planned for each recommendation, as well as
target dates for their completion. A brief summary of management’s response grouped by
finding area follows.

OPS had no record of background investigations for half of the Institution’s employees.
We made six recommendations (1 through 6) to strengthen management of the
background screening program and ensure all employees and other individuals affiliated
with the Institution are properly identified, screened and tracked. In response to our
recommendations, OPS and OHR have improved communications between their
departments, and OPS will get bi-weekly listings of new employees from all OHR-serviced
staff, including SAO, as well as bi-weekly listings from SBV and FONZ.

To address the data-entry and report-generation issues, the OPS Director has ordered
mandatory refresher training on NACIS for all personnel security staff. In the short term,
OPS is also examining the option of shifting this database into a Microsoft-based or other
database software. Nonetheless, OPS recognizes that this would serve only as a temporary
solution because it will not satisfy HSPD-12 requirements. OPS has been working with
OCIO and a contractor to explore options for a more sophisticated tracking system that
would meet HSPD-12 requirements. Based on our recommendation, the system design
will include a linkage between the new system and the current OHR personnel system.


                                             13
OPS estimates the new system will be available by FY 2008 at the latest, earlier if adequate
funding is made available.

The OPS Director also has designated an internal analyst to perform a complete audit of
all personnel security information, data entry and documentation. The analyst will
reconcile existing records, perform a weekly audit of all new personnel security
transactions and, from this point forward, continue to update the database through the
complete life cycle of all Smithsonian background investigations. In addition, OPS will
work closely with OPM to identify any employees or contractors that have not had an
investigation and ensure that appropriate investigations are completed. This will be
accomplished by December 2006.

Type and timing of background investigations were not always determined by position
risk. We issued four recommendations (7 through 10) associated with this finding. OPS
and OHR agreed to work cooperatively to develop sensitivity levels and the associated
types of background investigations for all employee, contractor, and other positions at the
Institution. Once this framework has been established, OPS will work closely with OPM
to ensure appropriate investigations are completed for all individuals, including senior
level staff. Additionally, OPS and OHR will begin prescreening prospective employees for
all designated positions and explore the procurement of investigative services other than
OPM to ensure thorough and timely completion of pre-employment investigations to
avoid delays in the hiring process. All corrective actions for this finding are estimated to
be completed by January 2007.

Investigations of contract employees were not documented. Regarding recommendation
11, OPS agreed to begin recording contractor investigations and their results in the
NACIS database by September 1, 2006, and will continue to use NACIS until a new
tracking system is developed.

Volunteers, researchers, and interns were not required to be screened. In response to
recommendation 12, OPS agreed to establish appropriate sensitivity levels for non-
employee positions and to ensure proper background checks are performed for those in
such positions as a condition of receiving Smithsonian identification badges. Because of
the substantial investment of time and resources involved, including at least 10,000
investigations, OPS set a target date of September 30, 2007.

Suitability issues were not properly adjudicated or recorded. We made six
recommendations (13 through 18) to strengthen the adjudication and documentation of
suitability determinations. Management agreed to implement a series of corrective
actions between July 2006 and August 2007 to address the recommendations. The OPS
and OHR Directors will work together to update the applicable Smithsonian Directives
and the Security Manual, ensure all suitability determinations are properly supervised,
and adjudicate each employee case we identified as having questionable suitability
determinations.



                                             14
In addition, the OPS Director will comply with all OPM guidance on federal employee
records retention and enhance record-keeping for each individual employed by or
affiliated with the Institution, including volunteers and contractors. An OPS analyst and
OFEO senior manager will perform a 100 percent weekly review of all personnel security
information, data entry, and documentation and submit a weekly report to the OPS
Director. Finally, OPS will submit OPM Certificates of Investigation to OHR and require
OHR confirmation that the certificates have been placed in the employees’ Official
Personnel Folders. For contractors, OPS will forward documentation of investigations to
OCON for record-keeping.

The full text of management’s comments is attached as Appendix B.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

Management’s proposed actions are responsive to our recommendations, and we
consider the recommendations resolved. We note, however, that several
recommendations are not scheduled to be completed until August 2007 or beyond,
depending on the availability of resources. Given the sensitive nature of the weaknesses
we identified and their effect on the security and safety of the Institution’s employees,
visitors, collections, and financial assets, we expect management will make these actions a
high priority and either acquire or reallocate the resources necessary to ensure full
implementation of the corrective actions as soon as is practicable.




                                            15
APPENDIX A. SCOPE AND METHODOLOGY

We reviewed OPM and Smithsonian Institution policies and procedures for conducting
background investigations of employees and contractors. We reviewed the Appraisal
Report of Personnel Security & Suitability Programs for the Smithsonian Institution
issued by OPM in 1997 and evaluated whether its recommendations had been
implemented. We read the requirements of HSPD-12 and considered its impact on the
Institution’s employee and contractor screening program.

To evaluate the adequacy of the Institution’s background screening process, we reviewed
background investigations conducted for employees from October 1, 2003 through April
30, 2005. We analyzed new employee listings from the human resources offices of the
Institution, Smithsonian Astrophysical Observatory (SAO), Smithsonian Business
Ventures (SBV), and the Friends of the National Zoo (FONZ); contractor listings from
the Office of Protection Services (OPS) Identification Office; and the OPS database
(NACIS) of background investigation records. We also evaluated the suitability
determinations associated with serious issues identified from Office of Personnel
Management (OPM) background investigations. We interviewed various management
and staff of OHR, OPS, other key units at the Institution, and OPM.

We compared listings of new employees hired by the Smithsonian, SAO, SBV, and FONZ
from October 1, 2003 to April 30, 2005 to the OPS NACIS database. During that period,
these offices hired 1,903 new employees who should have received background
investigations. We also compared listings of contractors who were issued identification
badges from July 1, 2005 to December 31, 2005 to the OPS NACIS database. As of
December 31, 2005, identification badges had been issued to 535 contractors.

We compared listings of senior-level employees to the OPS NACIS database to determine
whether they had received the appropriate background investigations. We compared
OHR listings of new hires and information reported by OPM to the OPS NACIS database
to determine whether background investigative records were complete and accurate.

To determine whether background investigations with significant suitability issues were
appropriately adjudicated, we examined a sample of 128 background investigative reports
that had been identified by OPM as having serious suitability issues. We judgmentally
selected 26 of the more serious cases for closer examination. We researched the OPS
NACIS database and interviewed OPS and Office of Human Resources staff to determine
the extent of the suitability determinations.

We conducted our audit between July 2005 and May 2006 in accordance with Government
Auditing Standards, as prescribed by the Comptroller General of the United States, and
included tests of management controls as we considered necessary.




                                           16
APPENDIX B. MANAGEMENT COMMENTS




                        17
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        18
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        19
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        20
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        21
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        22
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        23
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        24
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        25
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        26
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        27
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        28
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        29
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        30
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        31
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        32
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        33
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        34
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        35
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        36
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        37
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        38
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        39
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        40
